No._____

IN THE

Supreme Court of the United States
_______________________
ERIN DALY
– v. –

Petitioner,

CITIGROUP INC., CITIGROUP GLOBAL MARKETS,
INC., and CITIBANK, N.A.
Respondents.
_______________________
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
_______________________
PETITION FOR WRIT OF CERTIORARI
APPENDIX
_______________________
LAW OFFICE OF MICHELLE N DALY, PLLC
Richard Wolfram, Esq., Of Counsel
Attorney for the Petitioner
2537 Route 52, Suite 1
Hopewell Junction, New York 12533
Ph: (845) 592-4555
rwolfram@rwolframlex.com
December 16, 2019

APPENDIX

TABLE OF CONTENTS
Appendix A: Court of Appeals Opinion,
September 19, 2019 …………

Page
1a

Appendix B: District Court Order
February 13, 2018 …………..

34a

Appendix C: District Court Order
February 6, 2018 …………….

36a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
__________________
No. 18-665
__________________
ERIN DALY, Plaintiff-Appellant,
v.
CITIGROUP INC., CITIGROUP GLOBAL
MARKETS INC., CITIBANK, N.A.,
Defendants-Appellees.
__________________
Filed: September 19, 2019
__________________
Before: SACK, HALL, AND DRONEY, Circuit Judges.
OPINION
SACK, Circuit Judge.
The plaintiff-appellant, Erin Daly, is a
former employee of Citigroup Inc., Citigroup
Global Markets, Inc., and Citibank, N.A., the
defendants-appellees. She brought suit against
them in the United States District Court for the
Southern District of New York alleging gender
discrimination and whistleblower retaliation
claims under several local, state, and federal

2a
statutes, including the Dodd-Frank and
Sarbanes-Oxley Acts. In response, the defendants
filed a motion to compel arbitration and to dismiss
the plaintiff’s claims, arguing that each of the
plaintiff's claims, with the exception of her
Sarbanes-Oxley claim, was subject to mandatory
arbitration under her employment arbitration
agreement, and that her Sarbanes-Oxley claim
should be dismissed for lack of subject matter
jurisdiction. The district court (Richard J.
Sullivan, Judge) issued an opinion and order
granting the defendantsʹ motion in its entirety.
On appeal, the plaintiff argues that the district
court erred in dismissing her Sarbanes-Oxley
claim and compelling arbitration of the remainder
of her claims. We disagree. The district court
appropriately compelled arbitration of all but the
plaintiffʹs Sarbanes-Oxley claim, including her
Dodd-Frank whistleblower retaliation claim,
because her claims fall within the scope of her
employment arbitration agreement and because
she failed to establish that they are precluded by
law from arbitration. The plaintiffʹs SarbanesOxley claim was also properly dismissed because
the district court lacked subject matter
jurisdiction over it inasmuch as the plaintiff failed
to exhaust her administrative remedies under the
statute. Accordingly, the district courtʹs order is:
AFFIRMED.

3a
The plaintiff-appellant Erin Daly was
employed by the defendants- appellees, Citigroup
Inc., Citigroup Global Markets, Inc., and Citibank,
N.A. She brought suit in the United States District
Court for the Southern District of New York
alleging gender discrimination and whistleblower
retaliation claims under several local, state, and
federal laws, including the Dodd-Frank Act and the
Sarbanes-Oxley Act. In response, the defendants
filed a motion to compel arbitration and to dismiss
the plaintiffʹs claims. They argued that all of the
plaintiffʹs claims, with the exception of her
Sarbanes-Oxley claim, were subject to mandatory
arbitration under her employment arbitration
agreement. The defendants further contended that
the plaintiffʹs Sarbanes-Oxley claim, which is
nonarbitrable by statute, required dismissal for
lack of subject matter jurisdiction because the
plaintiff had failed to exhaust her administrative
remedies.
The district court (Richard J. Sullivan,
Judge) issued an opinion and order granting the
defendantsʹ motion to compel arbitration and to
dismiss in its entirety. The court concluded that
the plaintiffʹs claims fell within the scope of her
employment arbitration agreement. It further
concluded that the plaintiff had failed to establish
that her claims were precluded by law from
arbitration, with the exception of her SarbanesOxley claim, which is nonarbitrable by statute. As
relevant here, the court decided that because
Congress had not demonstrated its intent to
preclude claims arising under Dodd-Frankʹs
whistleblower
retaliation
provision
from
arbitration,
the
plaintiffʹs
Dodd-Frank

4a
whistleblower claim was arbitrable.
The court further concluded that the
plaintiffʹs Sarbanes-Oxley claim should be
dismissed because she had failed to exhaust her
administrative remedies before filing her claim in
federal court. While the district court noted its
uncertainty as to whether failure to exhaust under
Sarbanes-Oxley is a jurisdictional prerequisite to
suit evaluated under Federal Rule of Civil
Procedure 12(b)(1), or a claim-processing
requirement to be assessed under Rule 12(b)(6), it
concluded that the defendantsʹ motion must in
either event be granted. The district court
therefore dismissed the plaintiffʹs Sarbanes-Oxley
claim and ordered arbitration of the remainder of
her claims.
On appeal, the plaintiff maintains that the
district court erred in compelling arbitration of the
majority of her claims because they involve the
same whistleblower activity that is the subject of
her nonarbitrable Sarbanes- Oxley claim. She also
argues that the district court erred in dismissing
her Sarbanes-Oxley claim because even if
administrative exhaustion is a jurisdictional
prerequisite to suit, she has satisfied the statute’s
requirements.
These arguments are meritless.
The
district court correctly compelled arbitration of the
plaintiffʹs claims, with the exception of her
Sarbanes-Oxley claim, because they fall within the
scope of her employment arbitration agreement
and because she failed to satisfy her burden of
establishing that such claims are precluded by

5a
statute from compelled arbitration. The plaintiffʹs
Sarbanes-Oxley claim was also properly dismissed
because the district court lacked subject matter
jurisdiction inasmuch as the plaintiff failed to
exhaust her administrative remedies under the
statute, which constitutes a jurisdictional bar to
suit in federal court. The district court therefore
properly dismissed the plaintiffʹs Sarbanes-Oxley
claim and granted the defendantsʹ motion to
compel arbitration as to the remainder of her
claims.
BACKGROUND
Factual Background
From 2007 through 2014, the plaintiffappellant Erin Daly was employed by the
defendants-appellees, Citigroup Inc., Citigroup
Global Markets, Inc., and Citibank, N.A.
(collectively the ʺdefendantsʺ or ʺCitiʺ). On three
separate occasions while she was so employed, she
entered into an arbitration agreement with the
defendants, in the form of an Employment
Arbitration Policy (the ʺPolicyʺ). The Policy
required that all employment-related disputes be
arbitrated.1
In 2010, Daly was promoted to Assistant
Vice President of the Citi Private Bank Division.
These agreements were included in an appendix
to Citiʹs employee handbook, and the plaintiff
electronically accepted each of their terms.
1

6a
The position carried with it the highly coveted
authority to allocate shares of stock for purchase
among the defendantsʹ customers.2 Amended
Complaint (ʺACʺ) ¶ 72; J. App. 103. On June 29,
2012, however, Daly was stripped of her authority
to make such allocations. Despite her complaints
to her supervisors, Citi did not restore her
privileges. Other professional responsibilities of
hers were also diminished. The plaintiff asserts
that these actions on the part of her superiors were
intended to make it clear that ʺ[t]he boys were in
charge.ʺ Id. ¶ 93; J. App. 106 (emphasis omitted).
The plaintiff further alleges that her
supervisor, James Messina, ʺconstantly demanded
that
[she]
disclose
material
non-public
information of which he knew she was in
possessionʺ so that ʺhe could pass the information
along to his favored clients.ʺ Id. ¶¶ 121-22; J. App.
110. On November 19, 2014, Daly conveyed those
accusations to Citi attorneys and human resources
employees.
On December 1, 2014, less than two weeks
later, Daly was notified that she was being
terminated. The defendants later filed a Uniform
Termination Notice for Securities Industry
Registration Form (ʺForm U-5ʺ) with the Financial
In her complaint, Daly describes the securities
vaguely as ʺsubjective stock,ʺ AC 70, J. App. 103,
and ʺstock of certain ʹhotʹ IPOs,ʺ id. ¶ 72, J. App.
103, without alleging what her or the defendantsʹ
role was in its underwriting, sale, or distribution.
2

7a
Industry Regulatory Authority (ʺFINRAʺ), as
required when a registered representative of a firm
departs therefrom for any reason.3 It contained
assertions that, among other things, the plaintiff
had been late to work and had mishandled
confidential information. The plaintiff asserts that
these statements are ʺfalse, malicious, and
defamatory.ʺ Id. ¶¶ 36-38; J. App. 17-18. Because
the plaintiffʹs Form U-5 is available in the FINRA
database, which allows FINRA members to search
for information about individual financial
professionals, the plaintiff alleges that the
defendantsʹ statements continue to have an adverse
impact on her employment opportunities.

ʺThe National Association of Securities Dealers
(ʹNASDʹ) require[d] its members to file a termination
form (ʹForm U-5ʹ) whenever they terminate[d] a
registered employee. The form contain[ed] the
employerʹs statement of the reasons for the
termination, and the NASD provide[d] the form to
any member firm upon request.ʺ Rosenberg v.
MetLife, Inc., 493 F.3d 290, 290 (2d Cir. 2007) (per
curiam). In ʺ2007, the NASD merged with parts of
the New York Stock [E]xchange to form FINRA and
the NASD code was replaced by the FINRA Code.ʺ
Metro. Life Ins. Co. v. Bucsek, 919 F.3d 184, 188 (2d
Cir. 2019). The Form U-5 filing requirement
continued under FINRA. See Financial Industry
Regulatory Authority, ʺTerminate an Individualʹs
Registration,ʺhttps://www.finra.org/industry/termin
ate-individuals-registration (last visited September
3, 2019).
3

8a
Procedural History
On November 28, 2016, Daly filed a complaint
in the United States District Court for the Southern
District of New York. She alleged several gender
discrimination and whistleblower retaliation claims,
including claims under Title VII of the Civil Rights
Act of 1964, 42 U.S.C. § 2002(e); the Equal Pay Act of
1963, 29 U.S.C. § 206(d); the Sarbanes-Oxley Act
(ʺSOXʺ), 15 U.S.C. § 1514A; the Dodd-Frank Act
(ʺDodd-Frankʺ), 15 U.S.C. § 78u-6; and the Human
Rights Laws of New York State and City.
On March 3, 2017, the defendants filed a
motion to compel arbitration and to dismiss the
plaintiffʹs claims. They argued that, with the
exception of her SOX claim, the plaintiffʹs claims
were employment-related and therefore subject to
her employment arbitration agreement. They
further contended that the plaintiffʹs SOX claim
should be dismissed for lack of subject matter
jurisdiction because she had failed to exhaust her
administrative remedies.
On March 24, 2017, Daly responded, arguing
that her claims were not subject to arbitration
because there was clear congressional intent to
preclude such claims from the waiver of judicial
remedies. She also filed an amended complaint, the
operative pleading in this case. On October 6, 2017,
the defendants filed a letter supplementing their
motion to dismiss, in light of the amended
complaint, to which the plaintiff responded on
October 20, 2017.
On February 6, 2018, the district court

9a
issued an opinion and order granting the
defendantsʹ motion in its entirety.4 The district
court found that the plaintiff had entered into three
successive employment arbitration agreements. It
concluded that the plaintiffʹs claims fell within the
scope of her arbitration agreements. The court
further determined that the plaintiff had failed to
establish that her claims were nonetheless
precluded from arbitration by law, with the
exception of her SOX claim, which is nonarbitrable
by statute. By contrast, because Congress had not
demonstrated its intent to preclude Dodd- Frank
whistleblower claims from arbitration, the
plaintiffʹs Dodd-Frank claim was arbitrable. The
court therefore concluded that each of the plaintiffʹs
claims, with the exception of her SOX claim, was
subject to mandatory arbitration.
The district court also dismissed the
plaintiffʹs SOX whistleblower claim, concluding that
the plaintiff had failed to file an administrative
complaint within 180 days of the alleged violation,
and, thus, had not exhausted her administrative
remedies under the statute. See 18 U.S.C. §
1514A(b)(2)(D). The court noted its uncertainty as
to whether failure to exhaust under SOX is a
jurisdictional bar to suit, evaluated on a motion to
dismiss under Federal Rule of Civil Procedure
The opinion and order is equivalent to a final
judgment against Daly from which she can and
does appeal. See Fed. R. Civ. P. 54(a) (noting that
ʺʹJudgmentʹ as used in these rules includes a
decree and any order from which an appeal liesʺ).
4

10a
12(b)(1) for lack of subject matter jurisdiction, or a
claim-processing requirement to be assessed under
Rule 12(b)(6) for failure to state a claim. But it
determined that the plaintiffʹs claim was in either
event dismissible: If exhaustion is jurisdictional, the
plaintiffʹs claim fails for lack of subject matter
jurisdiction because she did not timely file her
administrative complaint; and if it is an element of
a claim, the plaintiff fails to assert equitable
defenses that would excuse her belated filing. The
court therefore dismissed the plaintiffʹs SOX claim
and referred each of her other claims to arbitration.
DISCUSSION
On appeal, the plaintiff argues that the
district court erred in dismissing her SOX claim for
lack of subject matter jurisdiction and compelling
arbitration of her other claims. She insists that her
Title VII, EPA, and Dodd-Frank claims involve the
same whistleblower activity that is the subject of
her nonarbitrable SOX claim and should therefore,
like her SOX claim, be precluded from arbitration.5

On appeal, the plaintiff does not separately
address her claims under the Equal Pay Act or
Title VII. She does, however, speak generally
about the claims asserted under federal law. See,
e.g., Pl. Br. 25 (ʺThe claims asserted here are
exactly the federal statutory claims . . . [which] . .
. Congress intended . . . to be non arbitrable.ʺ
(internal quotation marks omitted)). We therefore
understand the plaintiff to be contesting the
arbitrability of each of her federal claims,
including those under the EPA and Title VII.
5

11a
She further maintains that the district court erred
in dismissing her SOX claim for failure to exhaust
her administrative remedies because she continues
to suffer an ongoing violation on the part of her
former
employer,
thus
rendering
her
administrative filing timely.

12a

I.

Motion to Compel Arbitration

We review a district courtʹs decision to compel
arbitration de novo. See Motorola Credit Corp. v.
Uzan, 388 F.3d 39, 49 (2d Cir. 2004).
The Federal Arbitration Act (ʺFAAʺ), 9 U.S.C.
§ 1 et seq., ʺreflects a legislative recognition of ʹthe
desirability of arbitration as an alternative to the
complications of litigation.ʹʺ Genesco, Inc. v. T.
Kakiuchi & Co., 815 F.2d 840, 844 (2d Cir. 1987)
(quoting Wilko v. Swan, 346 U.S. 427, 431 (1953)).
The FAA, ʺreversing centuries of judicial hostility to
arbitration agreements, was designed to allow
parties to avoid the costliness and delays of
litigation, and to place arbitration agreements upon
the same footing as other contracts.ʺ Id.(internal
quotation marks omitted). To achieve these goals, it
provides that arbitration clauses in commercial
contracts ʺshall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law
or in equity for the revocation of any contract.ʺ 9
U.S.C. § 2. Therefore, ʺ[b]y its terms, the [FAA]
leaves no place for the exercise of discretion by a
district court, but instead mandates that district
courts shall direct the parties to proceed to
arbitration on issues as to which an arbitration
agreement has been signed.ʺ Dean Witter Reynolds,
Inc. v. Byrd, 470 U.S. 213, 218 (1985) (emphasis in
original).
In reviewing a motion to compel arbitration,
we must therefore determine: (1) ʺwhether the
parties agreed to arbitrateʺ; (2) ʺthe scope of that
agreementʺ; and, (3) ʺif federal statutory claims are
asserted, . . . whether Congress intended those

13a
claims to be nonarbitrable.ʺ Genesco, 815 F.2d at
844. In accordance with the ʺstrong federal policy
favoring arbitration as an alternative means of
dispute resolution,ʺ we resolve any doubts
concerning the scope of arbitrable issues ʺin favor of
arbitrability.ʺ State of N.Y. v. Oneida Indian Nation
of N.Y., 90 F.3d 58, 61 (2d Cir. 1996). In so doing,
we ʺwill compel arbitration unless it may be said
with positive assurance that the arbitration clause
is not susceptible of an interpretation that covers
the asserted dispute.ʺ Id. (internal quotation marks
omitted).
The plaintiff does not dispute that she
entered into three valid arbitration agreements
with the defendants during the course of her
employment, in the form of an Employment
Arbitration Policy. They provide:
This Policy applies to both you and to
Citi, and makes arbitration the required
and exclusive forum for the resolution of
all employment-related disputes (other
than disputes which by statute are not
subject to arbitration) which are based
on legally protected rights (i.e.,
statutory, regulatory, contractual, or
common-law rights) and arise between
you and Citi . . . . These disputes
include, without limitation, claims,
demands, or actions under Title VII of
the Civil Rights Act of 1964, . . . the
Equal Pay Act of 1963, . . . and any other
federal, state, or local statute,
regulation, or common-law doctrine
regarding employment, employment

14a
discrimination, the terms and conditions
of
employment,
termination
of
employment, compensation, breach of
contract, defamation, or retaliation,
whistle-blowing, or any claims arising
under the Citigroup Separation Pay
Plan.
J. App. 75.
The plain terms of the plaintiffʹs
arbitration agreements thus establish that the
parties agreed to arbitrate ʺall employment-related
disputes.ʺ Id. And, as the district court correctly
concluded, each of the plaintiffʹs claims fall within
that broad category. The only question that
remains then is whether Congress intended for any
of the plaintiffʹs federal statutory claims to be
nonarbitrable as a matter of law.
We conclude that the plaintiffʹs claims
arising under Title VII and the Equal Pay Act
(ʺEPAʺ) are arbitrable. We have previously
decided that there is insufficient evidence ʺthat
with respect to claims under Title VII, Congress
intended to preclude the waiver of judicial
remedies.ʺ Desiderio v. Natʹl Assʹn of Sec. Dealers,
Inc., 191 F.3d 198, 206 (2d Cir. 1999); see also
Gold v. Deutsche Aktiengesellschaft, 365 F.3d 144,
148 (2d Cir. 2004) (noting that we have
ʺconclude[d], along with the majority of other
circuits, that Title VII claims could be subject to
compulsory arbitrationʺ). Similarly, the plaintiff
has failed to present any ʺevidence that Congress
intended claims arising under the EPA to be
nonarbitrable.ʺ Crawley v. Macyʹs Retail
Holdings, Inc., No. 15 Civ. 2228 (KPF), 2017 WL
2297018, at *5, 2017 U.S. Dist. LEXIS 80541, at

15a
*13 (S.D.N.Y. May 25, 2017) (internal quotation
marks omitted). The plaintiff has therefore failed
to meet her burden of showing with respect to
either her Title VII or EPA claim that Congress
intended to preclude her claims from arbitration.
See Oldroyd v. Elmira Sav. Bank, FSB, 134 F.3d
72, 78 (2d Cir. 1998) (ʺCongress . . . may override
the presumption in favor of arbitration by
manifesting its intention to do so[, which] will be
discoverable in the text of the [statute], its
legislative history, or an inherent conflict between
arbitration and the [statuteʹs] underlying
purposes.ʺ (internal quotation marks omitted)),
abrogated on other grounds by Katz v. Cellco
Pʹship, 794 F.3d 341 (2d Cir. 2015). The parties
also expressly agreed that the scope of their
arbitration agreements covers ʺclaims . . . under
Title VII . . . [and] . . . the Equal Pay Act of 1963.ʺ
J. App. 75. The district court therefore correctly
compelled arbitration of both claims.
Whether the plaintiffʹs Dodd-Frank claim
is arbitrable, however, is less certain. To
determine whether it is, we must first look to its
statutory framework.
In 2002, Congress passed the SarbanesOxley Act, Pub. L. No. 107-204, 116 Stat. 745
(2002), which established a private right of action
for employees of certain companies who are
discharged for, among other things, ʺprovid[ing]
information . . . regarding any conduct which the
employee reasonably believes constitutes a
violation of [specified securities laws] . . . to . . . a
person with supervisory authority over the
employee.ʺ 18 U.S.C. § 1514A(a)(1)(C). Following

16a
the financial crisis of 2007-08, Congress passed
the Dodd-Frank Wall Street Reform and
Consumer Protection Act of 2010, Pub. L. No. 111203, 124 Stat. 1376 (2010), which, inter alia,
amended a variety of federal statutory provisions
that had been designed to regulate the financial
industry. As relevant here, Dodd- Frank amended
the Securities Exchange Act of 1934 to create a
private right of action against an employer who
retaliates against a whistleblower for engaging in
one or more of three categories of protected
activity including ʺmaking disclosures that are
required or protected under [SOX].ʺ 15 U.S.C. §
78u- 6(h)(1)(A)(iii). Separately, Dodd-Frank
amended the SOX whistleblower retaliation
provision, 18 U.S.C. § 1514A, to include an antiarbitration provision, which reads:
(1) Waiver of rights and remedies.--The
rights and remedies provided for in
this section may not be waived by any
agreement, policy form, or condition
of employment, including by a
predispute arbitration agreement.
(2) Predispute arbitration agreements.-No predispute arbitration agreement
shall be valid or enforceable, if the
agreement requires arbitration of a
dispute arising under this section.
18 U.S.C. § 1514A(e)(1)-(2). Importantly for
present purposes, Dodd-Frank did not include a
comparable anti-arbitration provision in its own
whistleblower provision, § 78u-6(h).

17a
The parties agree that Congressʹs
amendment to SOXʹs whistleblower-retaliation
provision to include an anti-arbitration clause
evidences clear congressional intent that claims
arising under that provision are to be precluded
from arbitration. We have yet to determine,
however, whether claims arising under DoddFrankʹs whistleblower provision are also
precluded from arbitration.6 The Third Circuit,
the only federal circuit to have ruled on this issue,
has found such claims to be arbitrable.7 See
Khazin v. TD Ameritrade Holding Corp., 773 F.3d
District courts in this Circuit have diverged on
the issue. Compare Murray v. UBS Securities,
LLC, No. 12 Civ. 5914 (KPF), 2014 WL 285093, at
*8-11, 2014 U.S. Dist. LEXIS 9696, at *22-33
(S.D.N.Y Jan. 27, 2014) (Dodd-Frank claims are
arbitrable), with Wiggins v. ING U.S., Inc., No. 14
Civ. 1089 (JCH), 2015 WL 3771646, at *7, 2015
U.S. Dist. LEXIS 78129, at *19 (D. Conn. June 17,
2015) (Dodd-Frank claims are nonarbitrable).
6

This also appears to be the consensus position of
district courts outside this Circuit. See, e.g., Sayre v.
JP Morgan Chase & Co., No. 17-cv-449 (JLS)
(MDD), 2018 WL 1109032, at *6, 2018 U.S. Dist.
LEXIS 30776, at *14-15 (S.D. Cal. Feb. 26, 2018);
Wussow v. Bruker Corp., No. 16-cv-444 (WMC),
2017 WL 2805016, at *6-7, 2017 U.S. Dist. LEXIS
99904, at *15-18 (W.D. Wis. June 28, 2017); Ruhe v.
Masimo Corp., No. SACV 11–00734 (CJC), 2011 WL
4442790, at *4-5, 2011 U.S. Dist. LEXIS 104811, at
*11-14 (C.D. Cal. Sept. 16, 2011).
7

18a
488, 492-95 (3rd Cir. 2014). For the reasons that
follow, we now join the Third Circuit in concluding
that Congress did not intend to preclude
arbitration of Dodd-Frank whistleblower claims:
First, nothing in Dodd-Frankʹs text suggests
that claims arising thereunder are nonarbitrable.
Dodd-Frank
amended
several
statutory
provisions to include anti-arbitration provisions
but did not do so with respect to its own
whistleblower provision, § 78u-6(h). As discussed
above, Dodd-Frank amended SOXʹs whistleblower
provision to include an anti-arbitration provision.
See 18 U.S.C. § 1514A(e)(2). It also inserted an
identical anti-arbitration provision into the
whistleblower protections of the Commodity
Exchange Act, see 7 U.S.C. § 26(n)(2), and a nearly
identical provision into the whistleblower
protections of the Consumer Financial Protection
Act, see 12 U.S.C. § 5567(d)(2) (ʺ[subject to one
limited exception,] no predispute arbitration
agreement shall be valid or enforceable to the
extent that it requires arbitration of a dispute
arising under this section.ʺ).
Congressʹs failure to attach an antiarbitration
provision
to
the
Dodd-Frank
whistleblower provision, § 78u-6(h), while
simultaneously amending similar statutory regimes
to include the same, is a strong indication of its
intent not to preclude Dodd-Frank whistleblower
claims from arbitration.8 See Gross v. FBL Fin.
The statuteʹs legislative history also supports our
understanding that this omission was not
8

19a
Servs., Inc., 557 U.S. 167, 174 (2009) (ʺWhen
Congress amends one statutory provision but not
another, it is presumed to have acted intentionally
[in doing so].ʺ); see also Khazin, 773 F.3d at 493
(ʺThe fact that Congress did not append an antiarbitration provision to the Dodd-Frank cause of
action while contemporaneously adding such
provisions elsewhere suggests . . . that the omission
was deliberate.ʺ).
Second, the language of the SOX antiarbitration provision restricts its applicability to its
own statutory scheme. As discussed above, the SOX
anti- arbitration provision states that ʺ[n]o
predispute arbitration agreement shall be valid or
enforceable, if the agreement requires arbitration of
a dispute arising under this section.ʺ 18 U.S.C. §
1514A(e)(2) (emphasis added). The ʺsectionʺ
referred to is the SOX whistleblower provision. The
accidental. See, e.g., Ruhe, 2011 WL 4442790, at *4,
2011 U.S. Dist. LEXIS 104811, at *13-14
(concluding based on review of relevant legislative
history that omission of anti-arbitration provision
in Dodd-Frankʹs whistleblower provision was not a
ʺdrafting errorʺ); Wussow, 2017 WL 2805016, at *7,
2017 U.S. Dist. LEXIS 99904, at *17-18 (noting that
ʺCongressʹs apparent inconsistent treatment with
the whistleblower provisions under SOX and DoddFrank has been the subject of substantial
discussion and a fair amount of criticism. Yet
Congress has done nothing to expressly expand the
SOX [a]nti-[a]rbitration [p]rovision to Dodd-Frank
whistleblower claimsʺ (internal citations omitted)).

20a
SOX anti-arbitration provision thus applies only to
agreements
requiring
arbitration
of
SOX
whistleblower claims. The Dodd-Frank cause of
action, by contrast, is not located in the same
section, or even the same title, of the federal code.
See 15 U.S.C. § 78u-6(h).9 The language of the SOX
anti-arbitration provision thus further reflects
congressional intent to limit its terms to the claims
arising under its particular statutory scheme.
Moreover, even if the SOX anti-arbitration
provision were ambiguous, we still could not infer
that Congress intended to extend its application to
Dodd Frank. Despite some surface similarities,10
Nor could the phrase ʺthis sectionʺ refer to the
location of these two provisions in Dodd-Frank itself.
While both the SOX anti-arbitration provision and
the Dodd-Frank whistleblower provision appear in
the same section of Dodd-Frank, ʺSec. 922.
Whistleblower Protection,ʺ see 124 Stat. 1376, 184149 (2010), the text of the statute clearly indicates
that each provision is to be incorporated at other
points in the federal code. Compare § 922(c)(2), 124
Stat. at 1848 (amending the whistleblower provision
of SOX ʺby adding [that anti-arbitration provision]
at the endʺ), with § 922(a), 124 Stat. at 1841 (DoddFrank whistleblower provision to be inserted into
ʺ[t]he Securities Exchange Act of 1934 (15 U.S.C.
78[a et seq.])).ʺ

9

The SOX whistleblower provision, 18 U.S.C.
§ 1514A(a), states, in relevant part, as follows:
10

No company [covered under relevant

21a

provisions of the Securities Exchange
Act] . . . may discharge, demote, suspend,
threaten, harass, or in any other manner
discriminate against an employee in the
terms and conditions of employment
because of any lawful act done by the
employee—
(1)
to provide information . . .
regarding any conduct which the
employee reasonably believes constitutes
a violation of . . . any rule or regulation of
the
Securities
and
Exchange
Commission, or any provision of Federal
law
relating
to
fraud
against
shareholders . . . ; or
(2)
to file . . . or otherwise assist
in a proceeding filed . . . relating to an
alleged violation of . . . any rule or
regulation of the Securities and
Exchange Commission, or any provision
of Federal law relating to fraud against
shareholders.
The Dodd-Frank whistleblower provision, 15
U.S.C. § 78u-6(h)(1)(A), states, in relevant part, as
follows:
No employer may discharge, demote,
suspend, threaten, harass, directly or
indirectly, or in any other manner
discriminate against, a whistleblower in
the terms and conditions of employment

22a
the whistleblower retaliation provisions of
Sarbanes-Oxley
and
Dodd-Frank
diverge
significantly in their ʺprohibited conduct, statute of
limitations, and remedies.ʺ Ahmad v. Morgan
Stanley & Co., 2 F. Supp. 3d 491, 497 (S.D.N.Y.
2014). For example, a whistleblower seeking to
assert a claim under SOX must first file an
administrative complaint with the Secretary of
Labor through the Occupational Safety and Health
Administration (ʺOSHAʺ), see 18 U.S.C. §
1514A(b)(1)(A), 29 C.F.R. § 1980.103(c), while that
same whistleblower asserting a claim under the
Dodd-Frank whistleblower provision may bring suit
directly in federal district court, see 15 U.S.C. § 78u6(h)(1)(B)(i). And a whistleblower asserting a claim
under SOX may obtain ʺback pay, with interest,ʺ 18
U.S.C. § 1514A(c)(2)(B), while under Dodd-Frank he
or she is entitled to double that amount, 15 U.S.C. §
78u- 6(h)(1)(C)(ii). These differences in the statutesʹ
because of any lawful act done by the
whistleblower—
(i) in providing information to the
[Securities and Exchange] Commission
in accordance with this section;
(ii)in initiating, testifying in, or assisting
in any investigation or judicial or
administrative action of the
Commission based upon or related to
such information; or
(iii)
in making disclosures that are
required or protected under [SOX}, this
chapter . . . , and any other law, rule, or
regulation subject to the jurisdiction of
the Commission.

23a
whistleblower provisions support our conclusion
that Congress did not intend for SOXʹs antiarbitration provision to extend to whistleblower
claims arising under Dodd-Frank.
Notwithstanding the absence of evidence that
Congress intended to preclude from arbitration the
Title VII, EPA, and Dodd-Frank claims, the plaintiff
asserts that we cannot separate these claims from
her SOX claims for purposes of determining their
arbitrability because they arise out of the same act
of whistleblowing. Pl. Br. 23. She therefore argues
that each of her federal claims, like her SOX claim,
should be precluded from arbitration. We disagree.
We cannot simply lump all of the plaintiffʹs claims
together for purposes of determining their
arbitrability, even if they pertain to the same
conduct. We are instead charged with ʺexamin[ing]
with care the complaints seeking to invoke [our]
jurisdiction in order to separate arbitrable from
nonarbitrable claims.ʺ KPMG LLP v. Cocchi, 565
U.S. 18, 19 (2011) (per curiam). Here, for the
reasons discussed, we conclude that Congress did
not intend for claims arising under Dodd-Frankʹs
whistleblower provision to be precluded from
arbitration. The plaintiffʹs SOX whistleblower claim
cannot save her otherwise arbitrable claims from
their fate. The district court therefore correctly
compelled arbitration of all of the plaintiffʹs claims,
with the exception of her SOX claim, which it
properly determined to be nonarbitrable.

II.

Motion to Dismiss

ʺWe review de novo a district courtʹs grant of
a motion to dismiss, including legal conclusions

24a
concerning the courtʹs interpretation and
application of a statute of limitations.ʺ Castagna v.
Luceno, 744 F.3d 254, 256 (2d Cir. 2014) (internal
quotation marks omitted). ʺA case is properly
dismissed for lack of subject matter jurisdiction
under Rule 12(b)(1) when the district court lacks
the statutory or constitutional power to adjudicate
it.ʺ Makarova v. United States, 201 F.3d 110, 113
(2d Cir. 2000). ʺThe burden of proving jurisdiction
is on the party asserting it.ʺ Robinson v. Overseas
Military Sales Corp., 21 F.3d 502, 507 (2d Cir.
1994).
The district court dismissed the plaintiffʹs
SOX whistleblower claim on the ground that she
failed to exhaust the statuteʹs administrative
exhaustion requirements, which require a
claimant who wishes to raise a claim of
whistleblower retaliation to first file a complaint
with OSHA within 180 days of the date of the
alleged violation, or when the claimant first
became aware of it.11 The plaintiff in this case did
not file her complaint with OSHA until at least two
years after she became aware of the alleged
violation. The district court concluded that Dalyʹs
claim required dismissal because she had failed to
As of July 22, 2010, the statute allows 180 days
for the filing of a complaint, rather than the
previously mandated statutory period of 90-days.
18 U.S.C. § 1514A(b)(2)(D) (2010). Since the
plaintiff filed her claim with OSHA no earlier
than 2016, the 180-day filing period applies to her
claim.
11

25a
exhaust her administrative remedies, even though
it was not certain whether the proper vehicle for
that dismissal was for lack of jurisdiction, under
Rule 12(b)(1), or for failure to state a claim, under
Rule 12(b)(6).
In evaluating whether the plaintiffʹs SOX
claim was correctly dismissed by the district court,
we
first
assess
whether
the
statuteʹs
administrative exhaustion requirements are a
jurisdictional prerequisite to suit. We consider the
Rule 12(b)(1) challenge first since ʺif [we] must
dismiss the complaint for lack of subject matter
jurisdiction, the [defendantsʹ] defenses and
objections become moot and do not need to be
determined.ʺ Rhulen Agency, Inc. v. Alabama Ins.
Guar. Assʹn, 896 F.2d 674, 678 (2d Cir. 1990)
(internal quotation marks omitted).
This Court has yet to address whether SOXʹs
administrative exhaustion requirements are a
jurisdictional prerequisite to suit, nor have we
found clear guidance among our sister circuits. The
Fourth Circuit assumed without deciding that a
claimantʹs failure to exhaust the statuteʹs
administrative remedies would deprive a district
court of jurisdiction, citing as support several
district court cases and an administrative decision
of the Department of Labor. See Feldman v. Law
Enfʹt Assocs. Corp., 752 F.3d 339, 345 n.7 (4th Cir.
2014). And the Fifth Circuit similarly implied that
the SOX exhaustion requirements are a
jurisdictional prerequisite to suit. See Heaney v.
Prudential Real Estate Affiliates, Inc., 328 F. Appʹx
314, 314 n.1 (5th Cir. 2009) (per curiam) (noting
that the court was ʺsatisfied that the plaintiff

26a
exhausted his administrative remedies under the
Sarbanes Oxley Act and thus that the district court
had jurisdiction over the matterʺ).12 However, the
First Circuit appears to have departed from this
position. See Newman v. Lehman Bros. Holdings
Inc., 901 F.3d 19, 25 (1st Cir. 2018) (dismissing the
plaintiffʹs SOX whistleblower claim for failure to
exhaust under 12(b)(6) after noting that
ʺadministrative exhaustion requirements in
similar statutes . . . are mandatory, though not
jurisdictional, and akin to a statute of limitationsʺ
(internal quotation marks omitted)).
To determine whether the administrative
exhaustion requirements of SOX are jurisdictional
or not, we look to the text of the statute to assess

Most district courts to have considered the issue
have similarly concluded that a claimantʹs
satisfying the statuteʹs administrative exhaustion
requirements is a jurisdictional prerequisite to suit.
See, e.g., Verble v. Morgan Stanley Smith Barney,
LLC, 148 F. Supp. 3d 644, 649-50 (E.D. Tenn. 2015)
(collecting cases), affʹd on other grounds, 676 F.
Appʹx 421 (6th Cir. 2017); Mart v. Forest River, Inc.,
854 F. Supp. 2d 577, 599 (N.D. Ind. 2012) (same);
Trusz v. UBS Realty Invʹrs, No. 9 Civ. 268 (JBA),
2010 WL 1287148, at *4 n.2, 2010 U.S. Dist. LEXIS
30374, *11-13 n.2 (D. Conn. Mar. 30, 2010); Nieman
v. Nationwide Mut. Ins. Co., 706 F. Supp. 2d 897,
907 (C.D. Ill. 2010); JDS Uniphase Corp. v.
Jennings, 473 F. Supp. 2d 705, 710 (E.D. Va. 2007);
Willis v. Vie Fin. Grp., Inc., No. CIV.A. 04-435, 2004
WL 1774575, at *2 n.3, 2004 U.S. Dist. LEXIS
15753, *5 (E.D. Pa. Aug. 6, 2004).
12

27a
the congressional intent behind it. See Patsy v. Bd.
of Regents of State of Fla., 457 U.S. 496, 501 (1982)
(ʺ[T]he initial question whether exhaustion is
required should be answered by reference to
congressional intent.ʺ); Ace Prop. & Cas. Ins. Co. v.
Fed. Crop Ins. Corp., 440 F.3d 992, 996 (8th Cir.
2006) (ʺThe Supreme Court has indicated that a
statute
requiring
plaintiffs
to
exhaust
administrative remedies before coming into federal
court may be either jurisdictional in nature or
nonjurisdictional, depending on the intent of
Congress as evinced by the language used.ʺ(citing
Weinberger v. Salfi, 422 U.S. 749 (1975))).
We conclude that the text of SOX makes
clear that Congress intended for its administrative
exhaustion requirements to be a jurisdictional
prerequisite to suit in federal court. The statuteʹs
exhaustion requirements are included in the same
provision—indeed, in the same sentence—as its
jurisdictional provision. And that provision
expressly grants federal jurisdiction only when
specific administrative remedies have been
exhausted:

(1)

In general.--A person who
alleges discharge or other discrimination
by any person in violation of [the
whistleblower protection provision] may
seek relief under [this section], by--

(A) filing a complaint with the Secretary
of Labor; or

(B) if the Secretary has not issued a final

28a
decision within 180 days of the filing
of the complaint and there is no
showing that such delay is due to the
bad faith of the claimant, bringing
an action at law or equity for de novo
review in the appropriate district
court of the United States, which
shall have jurisdiction over such an
action without regard to the amount
in controversy.
18 U.S.C. § 1514A(b)(1)(A)-(B).
The statute goes on to state that an employee
asserting a SOX whistleblower claim must file her
complaint with the Secretary of Labor ʺnot later than
180 days after the date on which the violation occurs,
or after the date on which the employee became
aware of the violation.ʺ 18 U.S.C. § 1514A(b)(2)(D).
And the Secretary of Labor has, in turn, delegated
the responsibility for adjudicating such a claim to
OSHA. See 29 C.F.R. § 1980.103(b)- (d).
By the terms of the statute and its attendant
regulations, then, a party may seek review of a SOX
whistleblower claim in federal court under two
circumstances:
First, when OSHA fails to issue a final
decision within 180 days of the filing of an
administrative complaint, and ʺthere is no showing
that such delay is due to the bad faith of the
claimant,ʺ 18 U.S.C. § 1514A(b)(1)(B),13 a party may

13

A final order in an OSHA administrative

29a
seek relief by ʺbringing an action at law or equity for
de novo review in the appropriate district court of the
United States.ʺ Id. Second, review in federal court is
possible if the party seeks review of a final order from
OSHA within 60 days in ʺthe United States Court of
Appeals for the circuit in which the violation
allegedly occurred or the circuit in which the
complainant resided on the date of the violation,ʺ in
which case the federal courtʹs review on appeal is
limited to the administrative record. See Bechtel v.
Admin. Review Bd., U.S. Depʹt of Labor, 710 F.3d
443, 450 (2d Cir. 2013) (explaining on review of
agency order dismissing SOX whistleblower claim
that our review is limited to the administrative
record).
In either instance, however, for the federal
court to have jurisdiction over the claim, the
claimant must first commence an action with an
adjudicating administrative agency.14
And the
proceeding is issued by an Administrative Law
Judge, unless a petition for review is filed and
accepted by the Administrative Review Board, who
would then issue the final order. See 29 C.F.R. §§
1980.109-110.
14
In this regard, the administrative scheme of
SOX differs significantly from that of Title VII,
which we have previously concluded does not
create a jurisdictional prerequisite to suit. Fowlkes
v. Ironworkers Local 40, 790 F.3d 378, 384 (2d Cir.
2015). While SOX is ʺjudicial in nature and is
designed to resolve the controversy on its merits,ʺ
the procedures of Title VII are ʺgeared toward
fostering settlement.ʺ Roganti v. Metro. Life Ins.
Co., No. 12 Civ. 161 (PAE), 2012 WL 2324476, at

30a
nature of a federal courtʹs subsequent review, if any,
is expressly set forth by statute and agency
regulation, including the standard of review (de
novo) and the substantive content that may be
reviewed (the administrative record). This
procedural structure reflects Congressʹs clear intent
for federal courts to exercise jurisdiction over a SOX
claim only after the claimant has first exhausted the
statuteʹs administrative remedies. We therefore
conclude that the administrative exhaustion
requirements under SOX are jurisdictional and a
prerequisite to suit in federal court.
We also conclude that the plaintiff has failed
to exhaust her administrative remedies, which, for
the foregoing reasons, deprives federal courts of
subject matter jurisdiction over her claim. Daly
contends that she filed an administrative complaint
on November 28, 2016, which is approximately two
years after her alleged wrongful termination,
although she concedes that OSHA did not actually
receive her complaint until March 24, 2017. See
Daly v. Citigroup Inc., No. 16-cv- 9183 (RJS), 2018
*6, 2012 U.S. Dist. LEXIS 84939, at *18 (S.D.N.Y.
June 18, 2012) (quoting Willis, 2004 WL 1774575
at *5, 2004 U.S. Dist. LEXIS 15753, at *15). And
while, as discussed, the federal jurisdictional
provision of SOX is coupled with its administrative
exhaustion requirements, the jurisdictional
provision in Title VII, by contrast, is entirely
separate from the ʺprovision specifying the time for
filing charges with the EEOCʺ and ʺdoes not limit
jurisdiction to those cases in which there has been
a timely filing.ʺ Zipes v. Trans World Airlines, Inc.,
455 U.S. 385, 393-94 (1982).

31a
WL 741414, at *6 n.5, 2018 U.S. Dist. LEXIS 19413,
*15 n.5 (S.D.N.Y. Feb. 6, 2018). In either event,
though, her administrative complaint was
untimely: It was submitted long after the 180-day
statutory filing period had run. See 18 U.S.C. §
1514A(b)(2)(D); 29 C.F.R. § 1980.103(d). Because
the plaintiff did not exhaust her administrative
remedies, the district court correctly dismissed her
claim for lack of subject matter jurisdiction.
The plaintiff argues that even if filing a
complaint with OSHA is a jurisdictional
prerequisite to suit, it is a requirement that she has
satisfied under the ʺcontinuing violationʺ doctrine.
See Pl. Br. 13-14, 18-20. Under that doctrine, a
court may review a claim involving a mix of timely
and time-barred conduct as part of one violative
pattern of activity. Gonzalez v. Hasty, 802 F.3d 212,
220 (2d Cir. 2015). The plaintiff argues that
because the defendantsʹ filing of a false and
defamatory Form U-5 about her on the FINRA
database continues to prevent her from obtaining
employment in the financial sector, their violation
is ongoing and, therefore, her 180-day filing
deadline has not yet elapsed. See Pl. Br. 13-14, 1820.
We disagree. The Supreme Court has
rejected the continuing violation doctrine in the
employment discrimination context when the
alleged violation involves discrete acts, rather than
an ongoing discriminatory policy. See Natʹl R.R.
Passenger Corp. v. Morgan, 536 U.S. 101, 114-15
(2002) (explaining that ʺacts such as termination,
failure to promote, denial of transfer, or refusal to
hireʺ are clearly discrete adverse actions); see also

32a
Lightfoot v. Union Carbide Corp., 110 F.3d 898, 907
(2d Cir. 1997) (ʺDiscrete incidents of discrimination
. . . will not ordinarily amount to a continuing
violation, unless such incidents are specifically
related and are allowed to continue unremedied for
so long as to amount to a discriminatory policy or
practice.ʺ (internal quotation marks omitted)). The
defendantsʹ misconduct, as alleged, consists of
discrete, discriminatory acts, including her
exclusion from workplace meetings, ultimate
termination, and the filing of a disparaging Form
U-5. They do not amount to an overarching policy
of discrimination and are, therefore, insufficient to
establish a continuing violation for purposes of
deferring her administrative filing deadline. See
Gonzalez, 802 F.3d at 220 (explaining that the
continuing violation doctrine does not apply ʺto
discrete unlawful acts, even where those discrete
acts are part of a serial violationʺ (internal
quotation marks and brackets omitted)). Indeed,
ʺ[t]o hold otherwise would render meaningless the
time limitations imposed on discrimination
actions.ʺ Lightfoot, 110 F.3d at 907-08.
We conclude, then, that Congress intended
for federal courts to be able to assert jurisdiction
over a SOX whistleblower claim only after the
claimant has first exhausted the statuteʹs
administrative remedies. Here, Daly failed to
satisfy
her
administrative
exhaustion
requirements because she did not file a timely
complaint with OSHA. She is therefore precluded
from filing her claim in federal district court.
Because the district court lacked subject matter
jurisdiction over her claim, the court properly

33a
dismissed it under Rule 12(b)(1).15
Conclusion
We have considered the plaintiffʹs remaining
arguments on appeal and conclude that they are
without merit. For the foregoing reasons, we
AFFIRM the order of the district court.

Because we conclude that the plaintiffʹs failure
to exhaust is a jurisdictional bar to suit, we need
not reach the plaintiffʹs SOX claim on the merits.
15

34a
APPENDIX B
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
_______________________
No. 16-cv-9183 (RJS)
_______________________
ERIN DALY, Plaintiff,
v.
CITIGROUP INC., CITIGROUP GLOBAL
MARKETS INC., AND CITIBANK, N.A.,
Defendants.
_______________________
Signed: February 14, 2019
_______________________
ORDER
_______________________
SULLIVAN, United States District Judge.
On February 6, 2018, the Court issued an order
dismissing Plaintiff’s Sarbanes-Oxley whistleblower
claim and referred all other claims to arbitration.
(Doc. No. 40.) When an entire dispute is referred to
arbitration and the parties request a stay, the Federal
Arbitration Act requires district courts to stay the
federal case while the arbitration proceeds. See Katz

35a
v. Cellco P'ship, 794 F.3d 341, 343 (2d Cir. 2015); see
also 9 U.S.C. § 3. However, where, as here, neither
party requests a stay, district courts have discretion
to stay or dismiss the case. See Benzemann v. Citibank
N A., 622 F. App’x 16, 18 (2d Cir. 2015) (summary
order); Zambrano v. Strategic Delivery Sols., LLC, No.
I 5-c v-8410 (ER) , 2016 WL 5339552 , at *10 (S.D.N.Y.
Sept. 22, 2016).
Accordingly, in an abundance of caution, the
Court gave the parties until February 13, 2018 to
inform the Court if they wished this case to be stayed
for the pendency of the arbitration. (Doc. No. 40, at
12.) The Court received no such notification. As a
result, the Clerk of Court is respectfully directed to
close this case.
SO ORDERED.
Dated:

February 14, 2019
New York, New York
/s/ Richard J. Sullivan
RICHARD J. SULLIVAN
UNITED STATES DISTRICT JUDGE

36a
APPENDIX C
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
_______________________
No. 16-cv-9183 (RJS)
_______________________
ERIN DALY, Plaintiff,
v.
CITIGROUP INC., CITIGROUP GLOBAL
MARKETS INC., AND CITIBANK, N.A.,
Defendants.
_______________________
Signed: February 6, 2018
_______________________

OPINION AND ORDER
_______________________
SULLIVAN, United States District Judge.
Plaintiff Erin Daly brings this action against her
former employers, Defendants Citigroup Inc.,
Citigroup Global Markets, Inc., and Citibank, N.A.
("Defendants" or "Citi"), alleging that Defendants
discriminated against her on the basis of her gender
and retaliated against her after she complained about
that discrimination and unrelated securities-law

37a
violations perpetrated by Defendants. Now before the
Court are Defendants' motions to (1) compel
arbitration and (2) dismiss Plaintiff's Sarbanes-Oxley
whistleblower claim for lack of jurisdiction and/or
failure to state a claim pursuant to Federal Rule of
Civil Procedure 12. (Doc. No. 20.) For the reasons set
forth below, the Court grants Defendants' motions in
their entirety.
I.

BACKGROUND16

The following facts are drawn from Plaintiff's first
amended complaint (Doc. No. 27 (" FAC")) and her
employment agreement (Doc. No. 22). On March 24,
2017, Plaintiff filed a letter motion seeking leave to
file an amended complaint and the amended
complaint itself. (Doc. Nos. 24, 25.) At the time, the
Court deferred consideration of Plaintiff's request to
amend her complaint until the resolution of
Defendants motion to dismiss. (Doc. No. 28.)
However, because Plaintiff's amended complaint was
filed exactly twenty-one days after Defendants made
their motion to dismiss and to compel arbitration,
Plaintiff was entitled to amend her pleadings as of
right pursuant to Federal Rule of Civil Procedure
15(a)(1)(B). Accordingly, the amended complaint is
the operative pleading in this action and will be
considered by the Court in connection with
Defendants’ motions. Nevertheless, because the
amended complaint has no effect on the arguments
raised by Defendants, the Court will deem
Defendants’ motions to apply to the amended
complaint. In addition, the Court has also relied on
Defendants’ memorandum of law (Doc. No. 20),
Plaintiff’s opposition (Doc. No. 23), Defendants’ reply
(Doc. No. 29), Defendants’ supplemental letter motion
16

38a
A. Facts
Plaintiff was employed by Defendants from
2007 to 2014 (Doc. No. 27 ("FAC") ¶¶ 53, 133),
eventually rising to the position of Assistant Vice
President in the "Citi Private Bank" division (id. ¶
57). While she was employed by Defendants, Plaintiff
entered into three successive arbitration agreements
with Defendants in which she agreed to the
mandatory arbitration of employment-related
disputes. (See Doc. No. 22, Exs. 1–6.) In 2009,
employees in Plaintiff’s division (the “Desk”) were
given authority to allocate stock among the Bank’s
clients. (Id. ¶¶ 70– 71.) The ability to exercise
allocation discretion was particularly desirable – and
made Desk employees valuable to clients – when a
major “hot” initial public offering took place. (Id. ¶¶
70– 72.) In those situations, the demand for stock
subscriptions often outpaced supply and the
allocation power could be used to reward some clients
over others. (Id.) On June 29, 2012, Plaintiff was
allegedly, and inexplicably, stripped of her ability to
allocate stock. (Id. ¶ 73.) Despite Plaintiff’s
complaints to her supervisors and her efforts to regain
her stock-allocation clearance, Plaintiff’s ability to
allocate stock was never restored. (Id. ¶¶ 75–88.) At
around the same time, Plaintiff started to be excluded
from regular meetings and her opinions and role on
the Desk were increasingly devalued. (Id. ¶¶ 90–92.)
Plaintiff claims that these employment decisions
communicated to others that “the boys were in
(Doc. No. 34), Plaintiff’s supplemental letter response
(Doc. No. 37) and the exhibits and declarations
attached thereto.

39a
charge.” (Id. ¶ 93 (emphasis omitted).) Plaintiff
further alleges that Citi employee James Messina,
who served as Plaintiff’s supervisor, repeatedly
demanded that Plaintiff disclose material, nonpublic
information that she obtained as a result of her role
as the “go-to person” for legally sensitive trading
plans and stocks that were subject to U.S. Securities
and Exchange Commission (“SEC”) rules governing
insider trading and restricted stock. (Id. ¶¶ 102–22.)
On November 19, 2014, Plaintiff alerted Citi
attorneys and human resources employees of
Messina’s behavior, and on December 1, 2014,
Plaintiff was terminated. (Id. ¶¶ 124, 133.) After
Plaintiff was terminated, Defendants filed a Financial
Industry Regulatory Authority (“FINRA”) U5 Form
that included allegedly false and negative
descriptions of her performance as an employee.17 (Id.
¶ 38.)
B. Procedural History
Plaintiff filed her initial complaint on
November 28, 2016, bringing claims for (1) unlawful
gender discrimination and (2) subsequent retaliation
in violation of federal, state, and local
antidiscrimination statutes18 and of the whistleblower
FINRA maintains a database where members can
search for information concerning specific financial
professionals. Financial firms submit and maintain
U5 Forms to document a financial professional’s
period of employment, employment performance, and
other details for the benefit of future employers,
regulators, and interested parties. (See FAC ¶¶ 28,
30.)
18 Specifically, Plaintiff asserts violations of Title
17

40a
protections set forth in the Sarbanes-Oxley Act, 15
U.S.C. § 1514A, and the Dodd-Frank Act, 15 U.S.C. §
78u-6. (Doc. No. 1.) On January 31, 2017, Defendants
filed a premotion letter seeking leave to file the
present motions to compel arbitration and to dismiss
the complaint. (Doc. No. 14.) Plaintiff responded to the
letter the following day (Doc. No. 16), and the Court
held a premotion conference on February 10, at which
the parties discussed the issues of exhaustion,
timeliness, and arbitrability (see Hr’g Tr. 3:14–17,
7:11–11:9). On March 3, 2017, Defendants filed the
present motions, to which Plaintiff filed an opposition
and Defendants filed a further reply brief in support.
(Doc. Nos. 20, 23, 29.) On March 24, 2017 – the same
day Plaintiff filed her opposition – she also filed an
amended complaint along with a letter motion
seeking leave to file the amended complaint. (Doc.
Nos. 24, 25.) As discussed above, because Plaintiff
filed her amended complaint within twenty-one days
of Defendants’ motion, she had the right to amend her
pleading without permission from the Court.
Consequently, the amended complaint is the
operative pleading here. (See supra n.1.) With leave
of the Court, Defendants filed a letter supplementing
their motion to dismiss on October 6, 2017, and
Plaintiff responded on October 20, 2017. (Doc. Nos. 34,
37.) On October 2, 2017, Plaintiff filed a letter stating
that she had exhausted her complaint in
administrative proceedings and seeking leave to file a
“motion to remove her Sarbanes-Oxley claim [to
federal court] for de novo review.” (Doc. No. 32.) The
VII, the Equal Pay Act (“EPA”), the New York State
Human Rights Law, New York State’s workplace
retaliation statute, and the New York City Human
Rights Law.

41a
Court denied this request, concluding that such
motion was unnecessary and duplicative. (Doc. No.
33.) Despite this order, however, Plaintiff did file such
a “removal” motion, to which Defendants submitted a
response. (Doc. Nos. 35, 36, 38, 39.) Because Plaintiff’s
“motion to remove” was filed in contravention of a
Court order, the Court will neither consider it nor
Defendants’ response, and that motion is denied.
As for the remaining motions, Defendants
argue, first, that the vast majority of Plaintiff’s claims
are subject to mandatory arbitration per her
employment agreement with Defendants. Second,
Defendants argue that Plaintiff’s sole non-arbitrable
claim, the alleged violation of Sarbanes-Oxley’s
whistleblower protections, must be dismissed. The
Court will address each in turn.
II.

MOTION TO COMPEL ARBITRATION

Under the Federal Arbitration Act, arbitration
agreements “shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.” 9 U.S.C.
§ 2. “A district court has no discretion regarding the
arbitrability of a dispute when the parties have
agreed in writing to arbitration.” Leadertex, Inc. v.
Morganton Dyeing & Finishing Corp., 67 F.3d 20, 25
(2d Cir. 1995) (citing 9 U.S.C. §§ 3, 4). Federal policy
favors arbitration “as an alternative means of dispute
resolution.” Hartford Accident & Indemnity Co. v.
Swiss Reinsurance Am. Corp., 246 F.3d 219, 226 (2d
Cir. 2001). Indeed, the Second Circuit has stated that
“it is difficult to overstate the strong federal policy in
favor of arbitration, and it is a policy we ‘have often
and emphatically applied.’” Arciniaga v. Gen. Motors

42a
Corp., 460 F.3d 231, 234 (2d Cir. 2006) (quoting
Leadertex, 67 F.3d at 25). Accordingly, “where . . . the
existence of an arbitration agreement is undisputed,
doubts as to whether a claim falls within the scope of
that agreement should be resolved in favor of
arbitrability.” ACE Capital Re Overseas Ltd. v. Cent.
United Life Ins. Co., 307 F.3d 24, 29 (2d Cir. 2002); see
also Collins & Aikman Prods. Co. v. Bldg. Sys., Inc.,
58 F.3d 16, 19 (2d Cir. 1995) (“‘[F]ederal policy
requires us to construe arbitration clauses as broadly
as possible.’ . . . We will compel arbitration ‘unless it
may be said with positive assurance that the
arbitration clause is not susceptible of an
interpretation that covers the asserted dispute.’”
(quoting
David
L.
Threlkeld
&
Co.
v.
Metallgesellschaft Ltd. (London), 923 F.2d 245, 250
(2d Cir. 1991))). “In the context of motions to compel
arbitration . . . the court applies a standard similar to
that applicable for a motion for summary judgment.”
Bensadoun v. Jobe-Riat, 316 F.3d 171, 175 (2d Cir.
2003).
To determine whether a dispute is arbitrable, a
court must decide two questions: “(1) whether there
exists a valid agreement to arbitrate at all under the
contract in question . . . and if so, (2) whether the
particular dispute sought to be arbitrated falls within
the scope of the arbitration agreement.” Hartford
Accident, 246 F. 3d at 226 (citation omitted). In
addition, where federal statutory claims are asserted,
a court must also consider a third issue – that is,
“whether Congress intended those claims to be
nonarbitrable.” Guyden v. Aetna, Inc., 544 F.3d 376,
382 (2d Cir. 2008) (quoting Oldroyd v. Elmira Sav.
Bank, 134 F.3d 72, 75–76 (2d Cir. 1998)). “[S]tatutory
claims may be the subject of an arbitration

43a
agreement, enforceable pursuant to the [Federal
Arbitration Act] . . . ‘unless Congress itself has
evinced an intention to preclude a waiver of judicial
remedies for the statutory rights at issue.’” Gilmer v.
Interstate/Johnson Lane Corp., 500 U.S. 20, 26 (1991)
(quoting Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc., 473 U.S. 614, 628 (1985)).
Here, Plaintiff entered into an agreement with

Defendants making arbitration the required and
exclusive forum for the resolution of all employmentrelated disputes.19 (See Doc. No. 22, Ex. 5 (the
“Arbitration Agreement”).) In relevant part, the
language of the Agreement provides:
This Policy applies to both you and to
Citi, and makes arbitration the required
and exclusive forum for the resolution of
all employment-related disputes (other
than disputes which by statute are not
subject to arbitration) which are based
on legally protected rights (i.e.,
statutory, regulatory, contractual, or
common-law rights) and arise between
you and Citi, its predecessors, successors
and assigns, its current and former
Plaintiff actually entered into three successive,
substantially identical, arbitration agreements with
Defendants. (See Doc. No. 22, Exs. 1, 3, 5.) Each
agreement was included as an appendix to the
employee handbook, and Plaintiff submitted
electronic acknowledgements that she accepted the
terms of each agreement. (See id., Exs. 2, 4, 6.)
19

44a
parents, subsidiaries, and affiliates . . . .
These
disputes
include,
without
limitation, claims, demands, or actions
under Title VII of the Civil Rights Act of
1964, . . . the Equal Pay Act of 1963, . . .
and any other federal, state, or local
statute, regulation, or common-law
doctrine
regarding
employment,
employment discrimination, the terms
and
conditions
of
employment,
termination
of
employment,
compensation, breach of contract,
defamation, or retaliation, whistleblowing, or any claims arising under the
Citigroup Separation Pay Plan.
(Doc. No. 22, Ex. 5 at 3.) Plaintiff does not deny the
existence or the validity of the Agreement. And it is
also clear that all of Plaintiff’s claims in this lawsuit
are undeniably employment-related. Accordingly,
Plaintiff’s state law claims must be arbitrated. See
Preston v. Ferrer, 552 U.S. 346, 352–53 (2008). The
only sticking point in the analysis is whether there is
any discernable congressional intent to make
Plaintiff’s federal statutory claims –Title VII, the
EPA, Sarbanes- Oxley, and Dodd-Frank – nonarbitrable.
The Second Circuit has expressly held that
Title VII claims are arbitrable. See Desiderio v. Nat’l
Ass’n of Sec. Dealers, Inc., 191 F.3d 198, 206 (2d Cir.
1999); see also, e.g., Johnson v. Tishman Speyer
Props., L.P., No. 09-cv-1959 (WHP), 2009 WL
3364038, at *3 (S.D.N.Y. Oct. 16, 2009) (compelling
arbitration for Title VII claims specifically named in
the arbitration agreement). Here, the Arbitration

45a
Agreement states that the scope of the agreement
“includes, without limitation, claims, demands, or
actions under Title VII of the Civil Rights Act of
1964.” (Doc. No. 22, Ex. 5 at 3.) Accordingly, Plaintiff’s
Title VII claim is subject to arbitration.
As for Plaintiff’s EPA claim, Plaintiff neither
contests the arbitrability of that claim, nor carries her
burden in demonstrating that Congress “intended to
preclude a waiver of a judicial forum” with respect to
EPA claims. Gilmer, 500 U.S. at 26. In the absence of
any discernable congressional intent to the contrary,
the Court finds that Plaintiff’s EPA claim is obviously
subject to arbitration. Accord Steele v. L.F. Rothschild
& Co., Inc., 701 F. Supp. 407, 408 (S.D.N.Y. 1988)
(concluding that EPA claims are arbitrable).
Plaintiff’s Sarbanes-Oxley whistleblower antiretaliation claim stands on different footing. When
Congress enacted Dodd-Frank, it amended SarbanesOxley’s whistleblower anti-retaliation provision to
make it non-arbitrable. See 18 U.S.C. § 1514A(e)(2)
(“No predispute arbitration agreement shall be valid
or enforceable, if the agreement requires arbitration
of a dispute arising under this section.”). This
constitutes a clear congressional statement of intent
that Sarbanes- Oxley whistleblower claims be
exempted from arbitration. Accordingly, this claim is
not arbitrable.
A closer question is whether Dodd-Frank’s
separate whistleblower anti-retaliation provision is
non-arbitrable. As discussed above, when Congress
enacted Dodd-Frank it amended Sarbanes-Oxley’s
whistleblower provision to exempt such claims from

46a
predispute
arbitration
agreements;
however,
Congress did not include the same language in DoddFrank’s own analogous whistleblower-protection
provision. Compare 18 U.S.C. § 1514A(e)(2)
(Sarbanes- Oxley), with 15 U.S.C. § 78u-6(h)(1) (DoddFrank). At first glance, it might appear odd that a
single piece of legislation – Dodd-Frank – would
simultaneously
amend
an
earlier-enacted
whistleblower provision to limit its arbitrability while
enacting a new whistleblower protection with no
restrictions as to arbitrability. But on closer
inspection, and as Judge Failla noted in a thoughtful
opinion on the subject, it is apparent that the two
whistleblower provisions are distinct, differing in
procedure, remedies, and their statutes of limitations
such that the conditions of one cannot simply be
grafted upon the other. See Murray v. UBS Sec., LLC,
No. 12-cv-5914 (KPF), 2014 WL 285093, at *8–9
(S.D.N.Y. Jan. 27, 2014); see also Ahmad v. Morgan
Stanley & Co., Inc., 2 F. Supp. 3d 491, 497 (S.D.N.Y.
2014) (concluding that Dodd-Frank is not “merely a
fraternal twin of the Sarbanes–Oxley whistleblower
provision, it is a distinct cause of action that ‘increases
a party’s liability for past conduct’” (quoting Landgraf
v. USI Film Prods., 511 U.S. 244, 280 (1994))).
Needless to say, “when Congress amends one
statutory provision but not another, it is presumed to
have acted intentionally.” Gross v. FBL Fin. Servs.,
Inc., 557 U.S. 167, 174–75 (2009). The Court thus
finds that Congress’s choice not to include a mirror
provision in the anti-retaliation provisions of DoddFrank is suggestive of its intent that the Dodd-Frank
claim be subject to arbitration. In light of this
ascertainable congressional intent, the Court
concludes, like Judge Failla, that Dodd-Frank’s
whistleblower provision is not subject to the bar on

47a
arbitrability imposed by Sarbanes-Oxley’s similar
provision. See Murray, 2014 WL 285093, at *11.
Accordingly, all of Plaintiff’s claims, with the
exception of her Sarbanes-Oxley claim, are arbitrable.

III.

MOTION TO DISMISS

Defendants seek to dismiss Plaintiff’s
Sarbanes-Oxley claim for lack of jurisdiction due to
Plaintiff’s failure to properly exhaust her claim. Most
courts to consider the question have concluded that
failure to properly comply with the statute’s
administrative exhaustion regime divests district
courts of jurisdiction. See, e.g., Feldman v. Law Enf’t
Assocs. Corp., 752 F.3d 339, 345–346 (4th Cir. 2014)
(assuming, without deciding, “that the requirement to
exhaust one’s administrative remedies . . . is
jurisdictional”); Wong v. CKX, Inc., 890 F. Supp. 2d
411, 417 (S.D.N.Y. 2012); Mart v. Forest River, Inc.,
854 F. Supp. 2d 577, 588–89 (N.D. Ind. 2012)
(compiling cases). But whether Plaintiff’s failure to
exhaust is jurisdictional or goes to an element of her
claim, the Court has little difficulty concluding that
Plaintiff’s Sarbanes-Oxley claim must be dismissed.
On a Rule 12(b)(1) motion to dismiss, the party
seeking to invoke the Court’s jurisdiction bears the
burden of proving that subject matter jurisdiction
exists. Robinson v. Overseas Military Sales Corp., 21
F.3d 502, 507 (2d Cir. 1994). “A case is properly
dismissed for lack of subject matter jurisdiction under
Rule 12(b)(1) when the district court lacks the
statutory or constitutional power to adjudicate it.”
Makarova v. United States, 201 F.3d 110, 113 (2d Cir.
2000).

48a
To survive a motion to dismiss pursuant to
Rule 12(b)(6) of the Federal Rules of Civil Procedure,
a complaint must “provide the grounds upon which
[the] claim rests.” ATSI Commc’ns, Inc. v. Shaar
Fund, Ltd., 493 F.3d 87, 98 (2d Cir. 2007); see also
Fed. R. Civ. P. 8(a)(2) (“A pleading that states a claim
for relief must contain . . . a short and plain statement
of the claim showing that the pleader is entitled to
relief
”). To meet this standard, plaintiffs must
allege “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007). “A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). In
reviewing a Rule 12(b)(6) motion to dismiss, a court
must accept as true all factual allegations in the
complaint and draw all reasonable inferences in favor
of the plaintiff. ATSI Commc’ns, 493 F.3d at 98.
However, that tenet “is inapplicable to legal
conclusions.” Iqbal, 556 U.S. at 678. Thus, a pleading
that offers only “labels and conclusions” or “a
formulaic recitation of the elements of a cause of
action will not do.” Twombly, 550 U.S. at 555. If the
plaintiff “ha[s] not nudged [its] claims across the line
from conceivable to plausible, [its] complaint must be
dismissed.” Id. at 570
Sarbanes-Oxley’s whistleblower provision
“prohibits a publicly traded company from retaliating
against an employee who provides information
concerning securities law violations to, among
other[s], a federal regulatory or law enforcement

49a
agency, a member of Congress, or ‘a person with
supervisory authority over the employee.’” Berman v.
Neo@Ogilvy LLC, 801 F. 3d 145, 147 (2d Cir. 2015)
(citing 18 U.S.C. § 1514A(a)(1)). Nevertheless,
Sarbanes-Oxley and its implementing regulations
establish
requirements
for
administrative
exhaustion. Thus, an employee seeking relief under
the whistleblower provisions of Sarbanes-Oxley must
first file a complaint with the Occupational Safety and
Health Administration (“OSHA”). See 18 U.S.C. §
1514A(b)(1)(A); 29 C.F.R. § 1980.103(d). This filing
“shall be commenced not later than 180 days after the
date on which the violation occurs, or after the date
on which the employee became aware of the
violation.” 18 U.S.C. § 1514A(b)(2)(D). If the Secretary
of Labor has not issued a final decision within 180
days of the complaint’s filing, the employee may bring
“an action at law or equity for de novo review in the
appropriate district court of the United States.” 18
U.S.C. § 1514A(b)(1)(B); 29 C.F.R. § 1980.114.
Because Section 1514A provides that “OSHA has
exclusive
jurisdiction
over
Sarbanes-Oxley
whistleblower claims for 180 days,” a “federal court
may not hear a Sarbanes–Oxley claim that is not first
submitted to OSHA.” Wong, 890 F. Supp. 2d at 417.
Here, the parties agree that 180 days have
elapsed since Plaintiff filed her administrative
complaint with OSHA.20 (See FAC ¶ 49, Doc. Nos. 34,
The amended complaint alleges that Plaintiff filed a
complaint “with the Department of Labor . . . alleging
whistleblower retaliation in violation of Sarbanes
Oxley” on November 28, 2016. (FAC ¶ 49.) However,
in subsequent submissions, Defendants claim – and

20

50a
37.) However, even if the claim has been pending for
more than 180 days, it was not timely filed and thus
was not properly exhausted, since Plaintiff was fired
in December 2014, but did not file her complaint for
retaliation for two years, well after the 180-day filing
window that followed the alleged retaliation.
Plaintiff responds that because she continues
to experience harm as a result of Defendants’ filing of
a negative U5 – which is accessible to potential
employers via the FINRA database – she is suffering
from a continuing violation for which the 180-day
limit has not yet run. But while the continuing
violation doctrine may function in narrow
circumstances to allow courts to consider a mix of
timely and time-barred conduct as part of one
violative pattern of activity, see Gonzalez v. Hasty, 802
F.3d 212, 220 (2d Cir. 2015), that doctrine does not
apply to the discrete acts at issue in retaliation cases
– in this case, Plaintiff’s alleged exclusion from
certain meetings, ultimate termination, and the filing
of a retaliatory U5. See Nat’l R.R. Passenger Corp. v.
Morgan, 536 U.S. 101, 114–15 (2002); Lightfoot v.
Union Carbide Corp., 110 F.3d 898, 907 (2d Cir. 1997)
(“Discrete incidents of discrimination that are
unrelated to an identifiable policy or practice . . . ‘will
not ordinarily amount to a continuing violation’ . . . .”
(quoting Van Zant v. KLM Royal Dutch Airlines, 80
F.3d 708, 713 (2d Cir. 1996)). Indeed, the Fifth Circuit
Plaintiff concedes – that OSHA did not receive the
complaint until March 24, 2017. (See Doc. No. 34 at 2,
Doc. No. 37 at 3.) Because either date is well beyond
the 180-day limit prescribed by statute, the Court
need not resolve this factual discrepancy.

51a
confronted a strikingly similar fact pattern and
concluded that the “‘continuing violation’ theory has
no application to th[e] discrete act” of the filing of an
allegedly retaliatory U5 form. Judy Chou Chiung-Yu
Wang v. Prudential Ins. Co. of Am., 439 F. App’x 359,
366 & n.6 (5th Cir. 2011). Plaintiff’s corollary
argument – that she continues to suffer ongoing
consequences of the allegedly false and retaliatory U5
– is equally unavailing. See Lightfoot, 110 F. 3d at
907–08 (“A continuing violation is not established
merely because an employee continues to feel the
effects of a discriminatory act on the part of the
employer.
To hold otherwise would render
meaningless the time limitations imposed on
discrimination actions.”); see also Birch v. City of New
York, 675 F. App’x 43, 44 & n.1 (2d Cir. 2017) (same).
In sum, Plaintiff’s Sarbanes-Oxley claim was
not properly exhausted under Section 1514A(b)(2)(D).
Accordingly, if the exhaustion requirement is
jurisdictional, Plaintiff’s Sarbanes- Oxley claim fails
for lack of subject-matter jurisdiction; if proper
exhaustion is simply an element of the claim, Plaintiff
fails to state a claim. Either way, Defendants’ motion
to dismiss must be granted.

IV. NEXT STEPS
Because all of Plaintiff’s remaining claims are
arbitrable and subject to a valid arbitration
agreement, they must be arbitrated. By submitting
her claims to arbitration, Plaintiff “does not forgo the
substantive rights afforded by the statute” but “only
submits to their resolution in an arbitral, rather than
a judicial, forum.” Mitsubishi Motors Corp., 473 U.S.

52a
at 628. Where an entire dispute is arbitrable, the
Federal Arbitration Act “requires a stay of
proceedings when all claims are referred to
arbitration and a stay requested.” Katz v. Cellco
P’ship, 794 F.3d 341, 343 (2d Cir. 2015) (emphasis
added); see also 9 U.S.C. § 3. But where “[d]efendants
seek dismissal rather than a stay . . . th[e] Court has
discretion whether to stay or dismiss Plaintiffs’
action.” Zambrano v. Strategic Delivery Sols., LLC,
No. 15-cv-8410 (ER), 2016 WL 5339552, at *10
(S.D.N.Y. Sept. 22, 2016). Here, neither party has
requested a stay. Accordingly, out of an abundance of
caution, if either party wishes for this case to be
stayed pending arbitration, that party must inform
the Court of that fact no later than February 13, 2018.

V. CONCLUSION
For the reasons set forth above, IT IS HEREBY
ORDERED THAT Plaintiff’s Sarbanes-Oxley claim is
DISMISSED and that Defendants' motion to compel
arbitration is GRANTED.
IT IS FURTHER
ORDERED THAT if either party wishes for this
action to be stayed rather than dismissed, that party
shall inform the Court no later than February 13,
2018. The Clerk of the Court is respectfully directed
to terminate the motions located at document number
20 and 38.
SO ORDERED.
Dated:

February 6, 2018
New York, New York

53a
/s/ Richard J. Sullivan
RICHARD J. SULLIVAN
UNITED STATES DISTRICT JUDGE

